  THE UNITED STATES MARSHALS
           SERVICE’S
COOPERATIVE AGREEMENT PROGRAM



       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


          Audit Report 05-28
              June 2005
               THE UNITED STATES MARSHALS SERVICE’S
                 COOPERATIVE AGREEMENT PROGRAM

                               EXECUTIVE SUMMARY

      The United States Marshals Service (USMS) is responsible for the
custody and transportation of detainees awaiting trial in federal courts. Most
of the 49,000 USMS detainees in custody daily are held in state, local, and
private jail facilities. One of the Department of Justice’s strategic goals is to
ensure the fair and efficient operation of the federal justice system. The
Department seeks to achieve this goal in part by providing for the safe,
secure, and humane confinement of detained persons awaiting trial and
sentencing through a multi-pronged approach using:

      •   Cooperative Agreement Program (CAP) agreements with state and
          local jails, where capital investment funding is provided in exchange
          for guaranteed bed space;

      •   Intergovernmental Service Agreements (IGAs) with state and local
          jails, where a daily rate is paid to the jails to house detainees;

      •   private jail facilities, where a daily rate is paid to house detainees;
          and

      •   federal detention facilities, where the government pays for
          construction and operation of the facilities.

      Detention and incarceration is a top management challenge in the
Department of Justice in part because of the current overcrowding rate in
federal prisons. Overcrowding in federal prisons also limits the option of
using federal prisons to house USMS detainees. In addition, the USMS is
reluctant to use private jail facilities because the jails usually require a
minimum number of detainees to be housed. Consequently, the USMS
primarily has used IGAs and CAP agreements to meet its needs for detention
space.

      In locations where detention space is scarce, the USMS negotiates with
state and local governments to provide an agreed-upon amount of CAP
funds to improve local jail facilities or expand jail capacities. In return, the
state and local governments guarantee the USMS an agreed-upon number of
bed spaces for a specified number of years. Use of the bed space also
requires an IGA between the USMS and the facility. When the USMS uses
the bed space guaranteed by the CAP, it pays a jail day rate to the facility


                                         i
for each detainee negotiated through the IGA. The jail day rate is based on
the annual operating cost of the facility and can be periodically modified.

       For many years, CAP agreements have been a significant tool used by
the USMS to guarantee detention space in court cities where detention space
is scarce.1 Since 1982, the USMS has awarded about $285 million to
counties and municipalities under CAP agreements, resulting in more than
13,600 guaranteed spaces for federal detainees. However, in recent years
Congress steadily reduced the appropriation for the CAP program and
eliminated funding for the program altogether for Fiscal Year (FY) 2005.

                                           CAP Funds Appropriated2
                                             FY 2001 – FY 2005
                                     $40
                                            $35
                                     $35
                                     $30
                                     $25
                          Millions




                                                  $20
                                     $20
                                     $15
                                     $10
                                                             $5
                                     $5                                $2
                                                                              $0
                                     $0
                                           2001   2002      2003       2004   2005
                                                         Fiscal Year


                       Source: Office of Justice Programs Appropriations

      Our audit focused on whether the USMS has developed adequate
plans, in the absence of CAP funding, to secure jail space in cities where CAP
agreements will expire during the next three fiscal years, and where jail
space is scarce but no CAP agreements exist.

     While bed spaces guaranteed by CAP agreements are decreasing and
CAP funding was eliminated in FY 2005, the USMS’s average daily detainee


       1
          Court cities are the cities throughout the United States where the Federal courts
are located and to which the USMS must transport detainees.

       2
          The CAP funding is appropriated annually in the Office of Justice Programs
approved budget and the funds are transferred to the USMS for management and execution
of the CAP program. The CAP funds appropriated for FY 2001 through FY 2003 included
funds for both the USMS and Immigration and Naturalization Service (INS) CAP
agreements. The INS was transferred from the Department of Justice to the Department of
Homeland Security in March 2003. The CAP funds appropriated after FY 2003 are for USMS
CAP agreements only.

                                                   ii
population increased by about 34 percent from FY 2001 to FY 2004. As of
FY 2005, the USMS has active CAP agreements that guarantee 11,203 bed
spaces that will expire between 2005 and 2029. Thirty-one CAP
agreements, guaranteeing 1,318 bed spaces annually, will expire during the
remainder of FY 2005 through FY 2007. The remaining 149 active CAP
agreements, guaranteeing 9,885 bed spaces annually, will expire from
FY 2008 through FY 2029. The following chart illustrates the loss of the
11,203 beds guaranteed through CAP funding as of January 13, 2005, if
CAP funds are not restored in future appropriations.

                Declining Number of Guaranteed Beds from
               Expiring CAP Agreements (FY 2005 - FY 2029)

                                    12000
                  Guaranteed Beds




                                    10000
                                    8000
                                    6000
                                    4000
                                    2000
                                       0
                                            2005 2008 2011 2014 2017 2020 2023 2026 2029
                                                             Fiscal Year

                Source: USMS CAP Agreement Files

       In addition, the USMS has identified 47 court cities where detention
space is a serious or emergency problem but, because CAP funding has been
eliminated, funds are not available to award CAP agreements. The USMS
identified 41 of the 47 court cities as having a serious problem and the
remaining 6 court cities as having an emergency problem. In court cities
with an emergency situation, the USMS District offices must transport
detainees to out-of-district facilities from 40 to 400 miles from the court city.
One District reported that it is transporting detainees to 15 different jails in
5 different states.

      The USMS has continued to secure detention space through traditional
means such as the use of IGAs, private jail contracts, and Federal Bureau of
Prisons (BOP) facilities. However, it is questionable whether the USMS will
be able to meet detention space needs through these traditional means once
CAP funding expires. USMS officials told us that finding detention space
across the country will not be a problem but finding bed space in close
proximity to the court cities where bed space is needed will be a problem.
The officials said that they plan to use traditional methods for securing jail
                                                           iii
space, such as negotiating IGA agreements with state and local
governments and private jail contractors, and housing detainees at BOP
facilities. However, the USMS’s plans were only verbally expressed and the
USMS provided no evidence to show that it had performed research or
analyses to determine: 1) whether state and local governments with
expiring CAP agreements would continue housing prisoners, and at what
cost, through IGAs in the absence of CAP funds; and 2) alternate locations,
where detainees could be housed, and at what cost, if current CAP sites
decide to discontinue housing USMS detainees when CAP funding ends.
Because the USMS had not thoroughly researched and addressed these
issues, we concluded that the USMS cannot assure that adequate detention
space, at a reasonable cost, will be available to meet the USMS’s detention
space needs as existing CAP agreements expire.

       In addition, in evaluating the CAP funding appropriated for FY 2001
through FY 2005, we determined that the USMS could not document what
happened to part of the funds appropriated for the INS. At the beginning of
FY 2004, the USMS had a balance of $10,339,540 that had been appropriated
for the INS CAP agreements. The USMS provided documentation to show that
Congress rescinded $9,600,000 because the INS had been transferred to the
Department of Homeland Security, leaving a balance of $739,540. We
inquired of USMS and Office of the Federal Detention Trustee (OFDT) officials
as to what happened with the remaining $739,540, but neither could provide
an explanation.3

      We also determined that based on the USMS’s documentation, the
USMS’s available balance for CAP agreements at the end of FY 2004 was
$2,441,848. However, documentation provided by the OFDT showed the
balance should be $2,191,269, a difference of $250,579. Similarly, we asked
USMS and OFDT officials to explain the difference, but neither could.

      In this report, we recommend that the USMS develop specific plans for
securing detention space absent CAP funding. We also recommend that the
USMS address the:

   •   $739,540 in CAP funds provided for INS CAP agreements that was not
       rescinded by Congress, and

   •   $250,579 difference between the available balance for CAP
       agreements at the end of FY 2004 based on the USMS’s records



       3
       The OFDT was created in FY 2001 to centralize the detention functions within the
Department of Justice.

                                           iv
($2,441,848) and the available balance for CAP agreements at the end
of FY 2004 based on documentation provided by OFDT ($2,191,269).




                              v
                                        TABLE OF CONTENTS


INTRODUCTION .............................................................................             1
  Background..................................................................................         1
  Budget Responsibilities for the CAP...................................................               3
  Funding History for the CAP.............................................................             4
  Prior Audit Reports ........................................................................         5
  Audit Approach .............................................................................         8

FINDINGS AND RECOMMENDATIONS ................................................ 9

1. THE USMS HAS NOT MADE ADEQUATE PLANS TO SECURE
   DETENTION SPACE IN THE ABSENCE OF CAP FUNDING ...............                                        9
   CAP Funding Reductions ................................................................              9
   Detainee Increases ..........................................................................       11
   Agreement Expiration and Detention Problems .................................                       12
   Plans to Secure Detention Space Without CAP Agreements ...................                          16
   Conclusion ......................................................................................   17
   Recommendation.............................................................................         18

2. THE USMS AND THE OFDT COULD NOT RECONCILE THE BALANCE
   OF CAP FUNDS AVAILABLE FOR EXPENDITURE .......................... 19
   Funding Discrepancies...................................................................... 19
   Recommendations ........................................................................... 21

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ..... 22

STATEMENT ON INTERNAL CONTROLS........................................... 23

ACRONYMS.................................................................................... 24

APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY ... 25

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS........... 28

APPENDIX III – EXAMPLES OF FY 2004 DISTRICT DETENTION
               STATUS SURVEYS ................................................ 29

APPENDIX IV – CAP AGREEMENTS EXPIRING FROM FY 2005
              THROUGH FY 2007................................................ 32

APPENDIX V – CAP AGREEMENTS EXPIRING AFTER FY 2007 ......... 34
APPENDIX VI – USMS’S RESPONSE TO THE DRAFT REPORT ........... 42

APPENDIX VII – OFDT’S RESPONSE TO THE DRAFT REPORT .......... 45

APPENDIX VIII – OFFICE OF THE INSPECTOR GENERAL ANALYSIS
                AND SUMMARY OF ACTIONS NEEDED TO CLOSE
                THE REPORT ...................................................... 47
                               INTRODUCTION

Background

      A strategic objective of the Department of Justice (Department) is to
provide for the safe, secure, and humane confinement of detained persons
awaiting trial and sentencing. One of the Department’s strategies to achieve
this objective is to acquire needed detention capacity through a multi-
pronged approach that includes agreements with state and local
governments, contracts with private vendors, construction and operation of
federal detention facilities, and the use of alternatives to detention. In
November 2004, the Office of the Inspector General (OIG) included
detention and incarceration as a top Department management challenge
because of the current overcrowding rate in federal prisons and problems
noted in our audits and reviews relating to medical contracting costs.

       The United States Marshals Service (USMS) assumes custody of
individuals arrested by federal agencies and houses and transports
detainees. Each day, the USMS houses about 49,000 detainees in federal,
state, local, and private jails throughout the nation. Bed space for housing
detainees are provided through:

      •   Cooperative Agreement Program (CAP) agreements with state and
          local jails, where the Department provides capital investment
          funding in exchange for guaranteed bed space;

      •   Intergovernmental Service Agreements (IGAs) with state and local
          jails, where the Department pays a daily rate to the jails;

      •   private jail facilities, where the Department pays a daily rate to
          house detainees; and

      •   federal detention facilities, where the Department pays for
          construction and operation of the facilities.

      Overcrowding in federal prisons limits the option of using federal
prisons to house USMS detainees. In addition, the USMS is also reluctant to
use private jail facilities because the jails usually require a minimum number
of detainees to be housed at the facilities. Consequently, the USMS
primarily has used IGAs and CAP agreements to meet its need for detention
space.




                                        1
       The USMS contracts with about 1,300 state and local governments for
jail space. Seventy-five percent of the detainees in the USMS’s custody are
detained in state, local, and private jail facilities.

      In locations where detention space is scarce, the USMS provides state
and local governments with funds from the Cooperative Agreement Program
(CAP) to improve local jail facilities or to expand jail capacities. In return,
the state and local governments guarantee the USMS space for Federal
detainees for an agreed-upon number of years.4 Use of the bed space also
requires an IGA between the USMS and the facility. When the USMS uses
the bed space guaranteed by the CAP, it pays a jail day rate to the facility
for each detainee as negotiated through the IGA. The jail day rate is based
on the annual operating cost of the facility and can be periodically modified.

        The USMS has internal guidelines to determine if a CAP agreement is
needed to secure detention space in areas where detention space is scarce.
According to the USMS CAP Training Manual, prior to awarding a CAP
agreement the USMS’s Prisoner Services Division should consider: 1) the
results of annual detention status surveys completed by USMS District
offices for each court city, 2) whether a reported shortfall in the number of
required detention bed spaces is continuous and is not based on a temporary
increase in the detainee population, 3) if there is a more economical way to
meet the detention need in the local court city, 4) whether existing Bureau
of Prisons (BOP) facilities located within a reasonable distance have space
for USMS detainees and are being fully utilized, 5) whether any detention
facilities within a reasonable distance could be utilized by participating in an
Intergovernmental Agreement (IGA) or by expanding an existing IGA, and
6) if existing CAP agreements in the District can be expanded or extended to
meet bed space needs.5

      The USMS Prisoner Services Division annually reviews CAP agreements
that are about to expire and determines the need for expanding or
continuing the agreements. To aid in this review, the Prisoner Services
Division obtains an annual survey from each USMS District office for each of
the 280 federal court cities in the United States. Appendix III of this report
contains examples of FY 2004 federal court city surveys. The Appendix

       4
         Congress mandated than any CAP agreement with a cost per bed space that
exceeds $25,000 must remain in effect for no less than 15 years.

       5
          An IGA is a formal written agreement between the USMS and a state or local
government to house federal detainees at a fixed per diem rate based on actual and
allowable costs for the same level of service provided to state or local prisoners in a specific
facility.


                                               2
contains three examples, one each for the reported Detention Status
categories of “no problem,” “serious,” and “emergency.”6 Before
determining if a CAP agreement is needed, the U.S. Marshal in a particular
district must coordinate with the BOP to ensure that existing BOP facilities
located within a reasonable distance from the federal court city in question
that have space specifically dedicated to house USMS detainees are being
fully utilized.7 Use of BOP space takes priority because this space is
provided at no cost to the USMS. If there is no BOP space available, the
District must identify all facilities within a reasonable distance to the court
city that may be interested in entering into an IGA with the USMS.
According to USMS guidelines, new cooperative agreements should be
considered as a solution only when IGA participation and existing
cooperative agreements are not viable options to adequately meet detention
bed space needs.

     As of January 13, 2005, the USMS was managing 180 active CAP
agreements totaling about $208 million and guaranteeing 11,203 bed
spaces.

Budget Responsibilities for the CAP

      While the USMS has primary responsibility for implementing the CAP
within the Department of Justice, the budget responsibilities for the CAP
involve multiple agencies. CAP funding, if provided by Congress, is
contained each year in the Office of Justice Programs (OJP) appropriation.
However, OJP has no responsibility for implementing the CAP. Prior to
FY 2003, OJP transferred the CAP funding to the USMS for implementation of
the program. Beginning in FY 2003, OJP transferred the CAP funding to the
Office of the Federal Detention Trustee (OFDT), which then transferred the




       6
           Prisoner Services Division staff told us that they assume there is no problem if a
District does not complete a survey for a court city. Besides reporting the Detention Status
for each court city, the Districts are requested to describe other initiatives that might affect
local jail population and thus bed space needs, such as current drug, gun, immigration, and
violent crime initiatives. The Districts are also asked to identify local facilities with jail
construction or renovation plans, and additional local jails with available beds, that could
house detainees for Districts experiencing emergency bed space shortages.
       7
         The USMS defines reasonable distance as a drive of one hour or less each way
from the court city to the detention facility, taking into consideration factors such as typical
weather conditions, road conditions, traffic, and geography.


                                               3
CAP funding to the USMS.8 Before FY 2004, the CAP budget was processed
as follows.

       •   The USMS submitted its request for CAP funding through OJP to the
           Department of Justice’s Justice Management Division (JMD).

       •   JMD analyzed the USMS’s CAP funding request and made
           recommendations to accept, increase, or decrease the USMS’s
           request. The revised CAP funding request was then included in the
           Department of Justice’s budget submission to the Office of
           Management and Budget (OMB).

       •   The OMB reviewed the CAP funding request and made
           recommendations to accept, increase, or decrease the request. The
           revised CAP funding request was then included in the President’s
           budget request to Congress.

       •   Congress debated the President’s budget request and made
           appropriations, which may or may not have included funds for the
           CAP.

       Initial budget estimates are submitted about 18 months before the
start of the fiscal year and therefore the FY 2004 budget initially was
compiled in the spring of 2002. Until the spring of 2003, the USMS had
been responsible for preparing the budget for its detention activities. At that
time, the OFDT took over the detention budget planning function by
preparing the FY 2005 budget request and making recommendations
regarding the CAP funding request before it was submitted to JMD.

Funding History for the CAP

      The Attorney General is authorized to make payments from funds
appropriated for the support of United States detainees by entering into
contracts or cooperative agreements with any state, territory, or political
subdivision thereof for the necessary construction, physical renovation,
acquisition of equipment, supplies, or materials required to establish


       8
          In FY 2001, Congress approved the Department of Justice’s request to establish
the OFDT. Historically, the confinement of persons in federal custody awaiting trial or
immigration proceedings was the responsibility of the USMS and the former Immigration
and Naturalization Service (INS). The detention activities of the former INS were
transferred to the new Bureau of Immigration and Customs Enforcement when the
Department of Homeland Security (DHS) was created in March 2003.


                                            4
acceptable conditions of confinement and detention services.9 In return, the
state or local jurisdiction must agree to provide guaranteed bed space for
federal detainees within its correctional system.

       Since 1982, the USMS has awarded about $285 million to state and
local jurisdictions under CAP agreements that have provided more than
13,600 guaranteed spaces for federal detainees. However, in recent years,
Congress reduced the appropriation for the program from $35 million in
FY 2001 to no appropriation in FY 2005, as shown in the following table.

                          Budget Requests and Approvals
                            FY 2001 through FY 2006
                                       (In Millions)


                        FY   FY   FY   FY   FY
       Organization    2001 2002 2003 2004 2005                             FY 2006
   USMS Request        $167  $45  $35  $46  $2                                $52
   OFDT Recommendation N/A   N/A  N/A  N/A N/A10                              $20
   JMD Recommendation   $35  $60   $5   $5  $2                                 $2
   OMB Recommendation   $35  $35   $0   $0  $0                                 $0
   Congressional
   Appropriation        $35  $20   $5   $2  $0                            Not Enacted
  Source: USMS Prisoner Services Division, OFDT, JMD, Appropriations as Enacted

      As explained in detail in the first finding of this report, for FY 2005
neither the Department nor OMB requested an increase above the $2 million
CAP appropriation for FY 2004. For reasons not specified in its
accompanying report, Congress provided no appropriation for the CAP in
FY 2005.

Prior Audit Reports

      The OIG previously audited the USMS CAP and, in a March 1992
report, we found that the USMS did not:

       •    consistently apply criteria for proposed CAP projects and thus did
            not have adequate assurance that CAP funds were disbursed only
            where needed;


       9
         The funding authority regarding cooperative agreements for detention services is
contained in Title 18, United States Code, Section 4013.

       10
         Beginning in FY 2005, the USMS submitted its budget requests through the OFDT.
However, the OFDT did not make a funding recommendation for the CAP in FY 2005.


                                            5
      •    have a satisfactory system for forecasting its prisoner workload and
           detention space requirements;

      •    obtain guarantees of jail space of sufficient duration when it
           awarded CAP funds for construction, expansion, or renovation of
           buildings;

      •    adhere to its policy of mandating periodic reports from both the
           local USMS Districts and the recipients of awards; and

      •    always enforce the terms of the CAP agreements by recouping
           funds from jurisdictions which failed to honor the agreements. 11

      In response to our 1992 report, the USMS stated that it had:

      •    established an enhanced review process to identify and prioritize
           CAP projects;

      •    continued efforts to obtain longer guarantees for CAP projects that
           fund construction, expansion, or renovation of buildings;

      •    worked with the BOP, INS, and other members of the Department’s
           Detention Planning Committee to develop projections for detention
           requirements from FYs 1993 through 1997;

      •    modified the USMS’s Prisoner Population Management System to
           capture the daily prisoner population totals to obtain an actual
           average daily prisoner population each month;

      •    took steps to hold U.S. Marshals accountable for progress report
           submissions; and

      •    reached agreement with three jails that had not complied with the
           CAP agreement terms by increasing the number of USMS detainees
           that the jails would house each year.

      In September 1992, the General Accounting Office (GAO) reported
that OMB staff believed CAP bed space was less economical than BOP bed




      11
          Office of the Inspector General Audit Report number 92-8, “United States
Marshals Service Cooperative Agreement Program,” March 1992.


                                            6
space and that OMB staff preferred to fund more permanent BOP jails.12
However, the GAO report indicated that CAP bed space is cost effective and
fills needs the BOP cannot meet. The GAO also reported that the BOP
believed it was not cost-effective to build jails with capacities of less than
500 beds. The GAO recommended that the Director of the OMB reexamine
the OMB’s concerns about the cost effectiveness of CAP bed space and more
carefully evaluate and balance a variety of cost elements in assessing the
cost-effectiveness of this program.

      In response to the GAO’s 1992 report, OMB said that it would take the
recommendation into consideration. However, OMB disagreed with the
assumptions underlying the GAO’s analysis of comparative CAP and BOP
costs in two respects. First, OMB disagreed with the GAO’s use of the
current average per diem because many of the current rates were
negotiated years earlier, and if renegotiated at that time would result in a
higher average cost. Second, OMB disagreed with the GAO’s use of 30 years
as the useful life of a BOP facility before major renovation or repair costs are
required because BOP facilities continue to be used past the 30-year point
without renovation.

      In December 2004, we issued a report on the OFDT in which we found
that although the OFDT had been in place for almost four years, it had not
completed the goal of centralizing and overseeing the Department’s
detention activities. The former INS’s transfer to the DHS, leadership
vacancies, and other obstacles had complicated the OFDT’s ability to build a
firm foundation with a clearly defined organizational purpose. In addition,
funds had to be transferred to the OFDT from other Department initiatives to
cover detention fund shortages.13

      We made 11 recommendations to assist the Department and the OFDT
in improving its management of detention activities. In response to our
2004 report, the OFDT stated that it undertook various corrective actions,
including:

      •    requiring the USMS to develop a district-level operating plan that
           must be submitted to the OFDT for approval for FY 2005,


      12
         The GAO report is entitled “Federal Jail Bedspace: Cost Savings and Greater
Accuracy Possible in the Capacity Expansion Plan,” report number GAO/GGD-92-141,
September 1992. On July 7, 2004, the GAO was renamed the Government Accountability
Office.
      13
           Office of the Inspector General Audit Report number 05-04, “Department of
Justice Office of the Federal Detention Trustee,” December 2004.

                                            7
      •   refining the model for projecting future detention space needs by
          incorporating measurable and reliable leading indicators, and

      •   updating the FY 2006 budget request to ensure that a shortfall does
          not occur.

Audit Approach

      Our audit approach focused on whether the USMS had developed
plans, in the absence of CAP funding, for: 1) replacing bed spaces that will
no longer be guaranteed when existing CAP agreements expire, and
2) securing detention space in court cities where jail space is scarce but no
CAP agreements exist. To achieve these objectives, we reviewed applicable
federal laws, regulations, policies, manuals, memoranda, USMS files, and
prior audit reports. We also interviewed officials from the USMS’s
headquarters and selected District offices, JMD, the OFDT, and OMB.
For additional details of our audit methodology, see Appendix I.




                                      8
                  FINDINGS AND RECOMMENDATIONS

     1. THE USMS HAS NOT MADE ADEQUATE PLANS TO
     SECURE DETENTION SPACE IN THE ABSENCE OF CAP
     FUNDING

     CAP funding has declined significantly over the last five
     years and was eliminated completely in FY 2005. In
     addition, OMB has recommended that no CAP funds be
     provided for FY 2006. The need for USMS detention space
     has increased by 34 percent since FY 2001. The USMS
     currently has 180 CAP agreements, guaranteeing 11,203
     bed spaces annually that will expire between FY 2005 and
     FY 2029. Of these, 31 agreements, guaranteeing 1,318
     bed spaces, will expire between FY 2005 through FY 2007.
     An additional 149 CAP agreements, guaranteeing 9,885 bed
     spaces annually, will expire between FY 2008 and FY 2029.
     Further, the USMS has identified 47 court cities where
     detention space is a serious or emergency problem but
     funds are not available to secure guaranteed detention
     space through CAP awards. The USMS continues to secure
     detention space by using IGAs, private jail contracts, and
     BOP space. However, the USMS has not determined
     whether jails with expiring CAP agreements will continue to
     house USMS detainees at a reasonable cost after the CAP
     agreements expire. Therefore, the USMS cannot provide
     assurance that it will be able to meet its detention space
     needs as existing CAP agreements expire.

CAP Funding Reductions

       CAP agreements have historically been a significant tool to guarantee
detention space in certain court cities. Since 1982, the USMS awarded
about $285 million to counties and municipalities under CAP agreements
guaranteeing more than 13,600 spaces for federal detainees. In recent
years, Congress steadily reduced the appropriation for the CAP, and
eliminated CAP funding altogether in FY 2005, as shown in the following
chart.




                                      9
                                 CAP Funds Appropriated
                                   FY 2001 – FY 2005

                                 $40
                                       $35
                                 $35
                                 $30
                                 $25



                      Millions
                                              $20
                                 $20
                                 $15
                                 $10
                                                         $5
                                 $5                                $2
                                                                          $0
                                 $0
                                       2001   2002      2003       2004   2005
                                                     Fiscal Year


                   Source: Office of Justice Programs Appropriations

      The following paragraphs describe the funding reductions experienced
by the CAP during FY 2001 through FY 2006.

       For FY 2001, the USMS submitted a proposed budget for
$167 million in CAP funding. This amount was for both the USMS’s and the
former INS’s CAP agreements and included an increase of $132 million over
the appropriated funding for FY 2000. In its analysis and recommendations,
JMD noted that the USMS and the INS had not consolidated their CAP
funding request as had been previously recommended by the OMB. Instead,
the two agencies merely submitted separate lists of each agency’s priority
CAP agreement needs. The Department requested that only $35 million be
approved for both the USMS and INS in FY 2001. The President’s budget
included the requested $35 million for FY 2001 and Congress appropriated
$35 million for both the USMS and INS.

       For FY 2002, the USMS submitted a proposed budget reflecting an
increase of $10 million above the $35 million appropriated for FY 2001. This
request was for USMS CAP agreements only. The Department increased the
USMS’s $45 million request to $60 million to provide funding for the INS CAP
agreements. The President’s budget included a total of $35 million for both
the USMS and INS. Congress reduced the President’s request by $15
million, appropriating $20 million for the USMS and INS for FY 2002,
indicating that the two components had retained over $20 million of
unobligated CAP funds that could have been used in FY 2002.




                                              10
       For FY 2003, the USMS submitted a proposed budget for
$35 million in CAP funding. This amount included funding for both USMS
and INS CAP agreements. The Department reduced the request by $30
million to $5 million, and the President’s budget recommended no CAP
funding at all for FY 2003. Congress appropriated $5 million for both the
USMS and INS.

      For FY 2004, the USMS submitted a proposed budget for
$46 million in CAP funding for USMS and INS agreements. The Department
reduced the USMS’s request by $41 million to the $5 million level
appropriated for FY 2003 and the President’s budget recommended no
funding at all for FY 2004. Congress appropriated $2 million for the USMS
alone.

      For FY 2005, the USMS did not request any increase over the
$2 million in CAP funding appropriated for the previous fiscal year, and the
OFDT made no recommendation on the proposed budget. The Department
forwarded the $2 million request to OMB. The President’s budget did not
recommend any CAP funds for FY 2005, and Congress subsequently
eliminated funding for the CAP altogether for FY 2005.

       For FY 2006, the USMS submitted to the OFDT a proposed budget for
$52 million in CAP funding. The OFDT reduced the USMS’s request to $19.8
million and requested that the CAP appropriation be included in the OFDT’s
budget instead of in the OJP’s budget and subsequently transferred to the
OFDT. The Department disapproved the increase because it did not agree
with the OFDT’s request that the CAP appropriation be included in the
OFDT’s budget. JMD staff told us they believed that the OFDT did not have
the staff to properly administer the program. Therefore, the Department
recommended only the base amount of $2 million. The President’s budget
did not include any funding for the CAP, and Congress has not acted on the
FY 2006 budget proposal as of June 2005.

Detainee Increases

      While CAP funding has decreased dramatically since FY 2001, the
USMS average daily detainee population has increased from 36,965 to
49,405, or about 34 percent over the same time period. This increase,
shown for each year in the table on the next page, has necessitated the
increased use of methods other than the CAP program for housing the
detainee population.




                                     11
                   USMS Average Daily Population Increases

                            Average Daily        Rate of Increase
          Fiscal Year    Detainee Population     from Prior Year
             2001              36,965                   ---
             2002              40,114                  8.5%
             2003              43,984                  9.6%
             2004              49,405                 12.3%
         Source: USMS

      The USMS has thus far met demands for detention space through the
use of CAP agreements, IGA agreements with state and local governments,
private jail contracts, and space at BOP prisons.

Agreement Expiration and Detention Problems

      Many CAP agreements will expire between 2005 and 2007, thus ending
guarantees for about 1,300 beds, and many more will expire by the end of
2029. To perform our analysis, we obtained the USMS’s CAP Beds Report as
of October 18, 2004. The CAP Beds Report identifies all court cities with
active CAP agreements and contains the following data:

   •   State
   •   District
   •   Court City
   •   Recipient Jail
   •   USMS Beds Guaranteed
   •   Years Agreement is in Effect
   •   USMS Funding
   •   Average Cost Per Bed
   •   Year Beds Become Available
   •   Year Agreement Expires

      We also obtained the CAP agreements to confirm the expiration date of
each agreement. The period of the agreement commences on the date the
project funded by the CAP agreement is completed and payments by the
United States Marshals Service are fulfilled. To calculate the expiration date
of each agreement, we reviewed two reports in the CAP agreement files
located at USMS headquarters. These two reports are the “USMS District
CAP Agreement Financial Closeout Report” and the “Recipient CAP
Agreement Financial Closeout Report.” The first report identifies the date all
work was completed on the project that was funded by the CAP agreement.
The second report identifies the date that the recipient of the CAP award
received final payment from the USMS. We took the latter of the two dates

                                      12
and added the duration of the agreement to determine the expiration date of
each. If only one or neither report was in the CAP agreement file, we relied
on the best documentation available in the file to determine the completion
date of the project and the date the recipient received final payment from
the USMS, and used the later date.

       We found that as of FY 2005, the USMS has 180 active CAP
agreements guaranteeing 11,203 bed spaces annually that will expire
between FY 2005 and FY 2029. Specifically, we determined that the USMS
had 31 CAP agreements, guaranteeing 1,318 bed spaces annually, that will
expire between FY 2005 through FY 2007. A listing of these agreements
showing the beds guaranteed and expiration dates is in Appendix IV. The
remaining 149 CAP agreements, guaranteeing 9,885 bed spaces annually,
will expire from FY 2008 through FY 2029. A listing of these agreements
showing the beds guaranteed and expiration dates is in Appendix V. The
following tables show the number of agreements that will expire each fiscal
year and the number of beds that will no longer be guaranteed from FY 2005
through FY 2029.

   Number of CAP Agreements that Will Expire Each Fiscal Year and
    Resulting Number of Beds That Will No Longer Be Guaranteed
                        FY 2005 - FY 2007

                                                  Number of Beds
                              Number of            That Will No
                 Fiscal    Agreements That           Longer Be
                 Year         Will Expire           Guaranteed
                 2005              5                    236
                 2006              11                   372
                 2007              15                   710
                 Total            31                   1,318
               Source: USMS Prisoner Services Division

Number of CAP Agreements that Will Expire Each Fiscal Year and the
  Resulting Number of Beds That Will No Longer Be Guaranteed
                      FY 2008 – FY 2029

                                                  Number of Beds
                              Number of            That Will No
                 Fiscal    Agreements That           Longer Be
                 Year         Will Expire           Guaranteed
                 2008              20                   959
                 2009              13                   568
                 2010              15                   923
                 2011              11                   611

                                        13
                                                                     Number of Beds
                                                 Number of            That Will No
                 Fiscal                       Agreements That           Longer Be
                 Year                            Will Expire           Guaranteed
                 2012                                 7                    187
                 2013                                 8                    920
                 2014                                 15                   915
                 2015                                 7                    470
                 2016                                 12                   868
                 2017                                 10                  1,430
                 2018                                 9                    687
                 2019                                 4                    237
                 2020                                 4                    555
                 2021                                 3                     95
                 2022                                 2                    104
                 2023                                 4                    195
                 2024                                 0                     0
                 2025                                 1                     22
                 2026                                 1                     75
                 2027                                 1                     20
                 2028                                 1                     24
                 2029                                 1                     20
                 Total                              149                   9,885
               Source: USMS Prisoner Services Division

      The following chart illustrates the loss of guaranteed beds if CAP funds
are not restored in future appropriations.

              Declining Number of Guaranteed Beds from
                       Expiring CAP Agreements
                          FY 2005 – FY 2029


                                    12000
                  Guaranteed Beds




                                    10000
                                    8000
                                    6000
                                    4000
                                    2000
                                       0
                                            2005 2008 2011 2014 2017 2020 2023 2026 2029
                                                            Fiscal Year

               Source: USMS CAP Agreement Files

                                                          14
       One tool used by the USMS to determine if an existing CAP agreement
needs to be expanded or a new CAP agreement needs to be established is
the annual detention status survey that Districts complete for each of the
approximately 280 court cities in the federal judicial system. In the surveys,
Districts are requested to identify their current detention status as either “no
problem”, “serious”, or “emergency.” We obtained the 253 surveys
submitted by the District offices for FY 2004. For the 31 CAP agreements
expiring during the remainder of FY 2005 through FY 2007, we compared the
agreements to the annual detention status surveys submitted by USMS
District offices for FY 2004. This comparison showed the detention status
reported for the 31 court cities covered by the soon-to-expire CAP
agreements as follows.

                   CAP Agreements Expiring FY 2005 – FY 2007
              District Detention Status Reported as of October 2004

      FY      No Report      No Problem       Serious   Emergency   Totals
     2005         3               1              1          0         5
     2006         6               3              2          0         11
     2007         2               5              7          1         15
     Totals      11               9             10          1         31
   Source: USMS Prisoner Services Division

       For the 11 court cities citing an existing serious or emergency
problem, the expiration of these CAP agreements will worsen the detention
space problem. Since there was no report or no problem cited for the court
cities covered by the remaining 20 CAP agreements, we contacted officials in
the District offices that submitted these agreements and asked whether the
expiration of the CAP agreements would, in the absence of additional CAP
funding, cause the District a problem in securing adequate detention space.
For 10 of the 20 agreements, the officials stated that expiration of the
agreements would cause a problem in the District’s ability to secure
adequate detention space in the applicable court cities. For the remaining
10 agreements, the District officials did not believe that expiration of the
agreements would cause problems in securing detention space. From the
data and follow-up interviews, expiration of CAP agreements between
FY 2005 through FY 2007 will significantly affect the USMS’s ability to
acquire detention space in 21 of the 31 court cities where CAP agreements
are currently in place.

      Detention problems could also worsen in other court cities because
CAP agreements can no longer be awarded beyond the current balance of
unobligated CAP funds. The FY 2004 detention status surveys identified


                                         15
47 court cites where detention space is rated as being either a serious or
emergency situation and where no CAP agreements currently exist. The
USMS identified 41 of the 47 court cities as having a serious situation and
the remaining 6 court cities as having an emergency situation. The six court
cities with an emergency situation were Tucson, Arizona; Bangor, Maine;
Rouses Point, New York; Aiken, South Carolina; Laredo, Texas; and
Brattleboro, Vermont.

        According to the 2004 detention status surveys, the most serious
problems were in Tucson, Arizona; Rouses Point, New York; and Brattleboro,
Vermont. For Tucson, Arizona, the USMS reported that it has a contract with
a local private jail for 3,000 beds to house USMS detainees, but exceeds this
total by an average of 900 detainees each day.14 Consequently, the USMS
must move the excess detainees to out-of-district facilities. For Rouses
Point, New York, the USMS reported that new detainees are transported to
jails in northern Vermont, which is a 400 mile trip. In Brattleboro, Vermont,
the USMS reported that the local jail space is exhausted and it is housing
detainees in 15 different jails in 5 states.

       Since CAP funding is no longer available to extend existing CAP
agreements or award new CAP agreements, it is critical that the USMS
develop alternate plans for securing detention space in court cities reporting
serious or emergency situations. If current CAP facilities will not allow the
USMS to continue to house detainees in their space, the USMS should
determine if other jail space is available at a BOP facility, another local jail
willing to enter into an IGA, or a private jail facility.

Plans to Secure Detention Space Without CAP Agreements

      Given that no new CAP funding is available to help the USMS secure
detention space, we asked USMS and OFDT officials whether they had:
1) made plans to secure detention space for the 31 court cities with CAP
agreements that will expire from FY 2005 through FY 2007,
2) developed long-term plans to secure detention space for the 149 CAP
agreements that will expire after FY 2007, and 3) developed plans to secure
detention space in court cities identified in the FY 2004 surveys as having a
serious or emergency detention space situation and where no CAP
agreements exist. While neither the USMS nor the OFDT provided any
specific plans to secure detention space for expiring CAP agreements, the
USMS stated that it planned to continue using traditional methods to secure
       14
         The contract for 3,000 beds at the Tucson, Arizona private jail is for housing the
USMS detainees and the Department of Homeland Security’s U.S. Immigration and Customs
Enforcement (ICE) detainees, About 81 percent of the space is used for USMS detainees
and about 19 percent is used for ICE detainees.

                                            16
detention space such as the use of IGAs, private jail contracts, and BOP
facilities. We asked USMS and OFDT officials if they had contacted officials
at jails whose CAP agreements are scheduled to expire within the next three
fiscal years to determine if the jail officials plan to reduce the number of
beds guaranteed by the agreements. Officials of both the USMS and OFDT
said that they had not contacted jail officials to determine their intentions
when the agreements expire.

       The USMS officials told us that finding bed space is not a problem, but
finding bed space in close proximity to the court cities where bed space is
needed is a problem. The USMS’s plans were vague and only verbally
expressed. The USMS provided no evidence to show that it had performed
research or analyses to determine: 1) whether state and local governments
with expiring CAP agreements would continue housing prisoners, and at
what cost, through IGAs in the absence of CAP funds; and 2) alternate
locations, where detainees could be housed, and at what cost, if current CAP
sites decide to discontinue housing USMS detainees when CAP funding ends.

        OFDT officials said that detention space, in the absence of CAP
funding, can be met with IGAs. They said that the USMS has in the past
relied too heavily on the CAP program to provide bed space for its detainees.
One OFDT official said that the CAP is not worth the money because jail
officials already have an incentive to house USMS detainees through IGAs.
Since the duration of a CAP agreement is typically 15 to 20 years, OFDT
believes the USMS is reluctant to house its detainees in another jail that may
have a lower per diem rate because they have invested funds in the CAP
facility. Another OFDT official said that the CAP program should be funded
but not at the level requested by the USMS. However, the OFDT had not
performed any analyses to show that CAP agreements were or were not cost
effective. Given the elimination of CAP funding in FY 2005, we did not
undertake such an analysis for the purpose of this report. In addition, like
the USMS, the OFDT provided no evidence to show that it had performed
research or analyses to support its position that the USMS could meet its
detention space needs at a reasonable cost with IGAs.

Conclusion

      Since FY 2001, the funding appropriated for the CAP program has
sharply declined and was eliminated altogether for FY 2005. Further, the OMB
proposed no funding for the program for FY 2006. However, the USMS’s
need for detention space has steadily increased since FY 2001. As of
January 13, 2005, the USMS had 31 CAP agreements, guaranteeing 1,318
bed spaces annually, that will expire between FY 2005 through FY 2007. In
addition, another 149 CAP agreements that guarantee 9,885 bed spaces

                                      17
annually will expire from FY 2008 through FY 2029. The USMS has identified
47 court cities where detention space is a serious or emergency problem but
funds are not available to award CAP agreements to secure guaranteed
detention space in these cities. Although CAP funding has been eliminated
and many CAP agreements will expire over the next few years, the USMS
has not determined whether jails with expiring CAP agreements will continue
to house USMS detainees at a reasonable cost after the CAP agreements
expire. Therefore, the USMS cannot provide assurance that it will be able to
meet its detention space needs as existing CAP agreements expire.

Recommendation

We recommend that the USMS:

1. Develop specific plans for securing detention space in the event that CAP
   funding is not restored in future appropriations. At a minimum, the plans
   should address:

     •   whether existing CAP sites plan to continue housing USMS
         detainees through an IGA when their CAP agreement ends, and at
         what cost; and
     •   what alternate facilities will be available to house detainees if the
         CAP sites decide to discontinue housing detainees when their CAP
         agreement ends, and at what cost.




                                      18
     2. THE USMS AND THE OFDT COULD NOT RECONCILE
     THE BALANCE OF CAP FUNDS AVAILABLE FOR
     EXPENDITURE

     While seeking to determine the funding history of the CAP
     since FY 2001, we identified $990,119 that could not be
     supported by either the USMS or the OFDT. Of the
     $990,119, $739,540 is the balance of the $10.3 million
     appropriated for INS CAP agreements before the INS was
     transferred to the Department of Homeland Security.
     Neither the USMS nor OFDT could provide documentation to
     show that $739,540 had been rescinded, spent, or
     otherwise accounted for. The other $250,579 is the
     difference between what USMS records support as the
     balance of CAP funds available to the USMS and what OFDT
     records support as the balance available. Neither the USMS
     nor the OFDT could provide documentation to reconcile the
     difference.

Funding Discrepancies

     In December 1999, the USMS and the INS entered into a
Memorandum of Understanding establishing an agreement for a single
Department CAP administered by the USMS’s Prisoner Services Division.

      We interviewed and obtained documentation from the USMS, OFDT,
and JMD officials regarding the accounting for CAP funds carried forward
from FY 2000 and appropriated from FY 2001 through 2004. Based on the
interviews and documentation provided, the following table shows the
accounting of CAP funds since the beginning of FY 2001.




                                   19
                              CAP FUNDING ANALYSIS

 Funding Action (2001)                       USMS                INS          Total
 Balance Carried Forward
 From FY 2000                                $2,107,604        $17,400,000   $19,507,604
 (+) Appropriated for FY 2001               $21,000,000        $14,000,000   $35,000,000
 (-) Reprogrammed for FY 2001                         $0                $0            $0
 (-) Rescinded for FY 2001                      $46,200            $30,800       $77,000
 (+) Deobligated for FY 2001                          $0                $0            $0
 (-) Obligated for FY 2001                  $10,346,000        $12,400,000   $22,746,000
 Balance Carried Forward
 To FY 2002                                 $12,715,404        $18,969,200   $31,684,604
 Funding Action (2002)                       USMS                 INS          Total
 Balance Carried Forward
 From FY 2001                               $12,715,404        $18,969,200   $31,684,604
 (+) Appropriated for FY 2002               $12,000,000         $8,000,000   $20,000,000
 (-) Reprogrammed for FY 2002                $2,436,364                 $0    $2,436,364
 (-) Rescinded for FY 2002                            $0                $0            $0
 (+) Deobligated for FY 2002                   $200,000           $500,000      $700,000
 (-) Obligated for FY 2002                  $20,358,340        $14,741,660   $35,100,000
 Balance Carried Forward
 To FY 2003                                  $2,120,700        $12,727,540   $14,848,240
 Funding Action (2003)                       USMS                 INS          Total
 Balance Carried Forward
 From FY 2002                                $2,120,700        $12,727,540   $14,848,240
 (+) Appropriated for FY 2003                $3,000,000         $2,000,000    $5,000,000
 (-) Reprogrammed for FY 2003                $2,563,636                 $0    $2,563,636
 (-) Rescinded for FY 2003                      $19,500            $13,000       $32,500
 (+) Deobligated for FY 2003                   $980,329         $8,125,000    $9,105,329
 (-) Obligated for FY 2003                   $3,055,000        $12,500,000   $15,555,000
 Balance Carried Forward
 To FY 2004                                    $462,893        $10,339,540   $10,802,433
 Funding Action (2004)                       USMS                 INS          Total
 Balance Carried Forward
 From FY 2003                                  $462,893        $10,339,540   $10,802,433
 (+) Appropriated for FY 2004                $2,000,000                 $0    $2,000,000
 (-) Reprogrammed for FY 2004                         $0                $0            $0
 (-) Rescinded for FY 2004                      $21,045         $9,600,000    $9,621,045
 (+) Deobligated for FY 2004                          $0                $0            $0
 (-) Obligated for FY 2004                            $0                $0            $0
 Balance Carried Forward
 To FY 2005                                  $2,441,848           $739,540    $3,181,388
Source: USMS Prisoner Services Division, JMD, Appropriations   as Enacted

      The USMS could not document what happened to part of the funds
appropriated for the INS. As shown in the CAP Funding Analysis table, at the
beginning of FY 2004 the USMS had a balance of $10,339,540 that had been
appropriated for INS CAP agreements. The USMS provided documentation to
show that Congress rescinded $9,600,000 because the INS had been
transferred to the Department of Homeland Security, leaving a balance of

                                            20
$739,540. As shown in the table, the $739,540 remained unspent at the
beginning of FY 2005. We asked USMS and OFDT officials to document what
happened to the $739,540. Despite repeated inquiries, neither organization
could provide an explanation. Therefore, we question $739,540 as
unsupported.

      The USMS’s balance of CAP funds at the beginning of FY 2005 was
$2,441,848, as is also shown in the preceding table. However,
documentation provided by the OFDT showed that the balance available for
USMS CAP agreements should be $2,191,269, a difference of $250,579. We
asked USMS and OFDT officials to explain the reason for the difference.
Neither organization was able to provide an explanation. Therefore, we
question $250,579 as unsupported. The two questioned amounts are shown
in the following table.

                    Summary of Unsupported Costs

              USMS Balance Carried Forward
              To FY 2005                            $2,441,848
              OFDT Balance Carried Forward
              To FY 2005                            $2,191,269
              Difference Between USMS & OFDT
              Balances Carried Forward to FY 2005    $250,579
              Balance Remaining at USMS after INS
              Recission                              $739,540
              Total Unsupported Amount               $990,119
             Source: USMS and the OFDT Records

Recommendations

We recommend that the USMS:

2. Remedy the questioned cost associated with the $739,540 in CAP funds
   provided for INS CAP agreements that was not rescinded by Congress.

3. Remedy the questioned cost associated with the $250,579 difference
   between the available balance for CAP agreements at the end of FY 2004
   based on the USMS’s records ($2,441,848) and the available balance for
   CAP agreements at the end of FY 2004 based on documentation provided
   by the OFDT ($2,191,269).




                                    21
   STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      We audited the USMS’s management of the CAP. The audit period
covered October 2000 to February 2005. The audit was conducted in
accordance with the generally accepted Government Auditing Standards.

      Compliance with laws and regulations is the responsibility of the
USMS. In connection with the audit and as required by the Standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about the USMS’s compliance with laws and regulations that, if not complied
with, we believe could have a material effect on program operations.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations for which we conducted tests
are contained in:

     •   Department of Justice Appropriations Act, 2001;

     •   Departments of Commerce, Justice, and State, the Judiciary, and
         Related Agencies Appropriations Act, 2002;

     •   Departments of Commerce, Justice, and State, the Judiciary, and
         Related Agencies Appropriations Act, 2003;

     •   Departments of Commerce, Justice, and State, the Judiciary, and
         Related Agencies Appropriations Act, 2004; and

     •   Departments of Commerce, Justice, and State, the Judiciary, and
         Related Agencies Appropriations Act, 2005.

     We also reviewed the following guidelines related to the CAP
program:

     •   FY 2004 Performance and Accountability Report, and

     •   The USMS CAP Training Manual

      Except for instances of non-compliance identified in the Finding and
Recommendations section of this report, the USMS was in compliance with
the laws and regulations referred to above. With respect to those
transactions not tested, nothing came to our attention that caused us to
believe that the USMS was not in compliance with the referenced laws and
regulations above.


                                     22
                  STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the USMS’s management of
the CAP, we considered internal controls for the purpose of determining our
auditing procedures. This evaluation was not made for the purpose of
providing assurance on the USMS’s internal controls as a whole. We noted,
however, a matter that we consider to be a reportable condition under the
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal controls
that, in our judgment, could adversely affect the USMS’s ability to effectively
manage the CAP. As discussed in the Findings and Recommendations
section of this report, we determined that the USMS had not adequately
planned to ensure that jail space will not become scarce in areas where CAP
agreements will expire within the next three fiscal years. Specifically, the
USMS had not contacted jails with agreements that will expire within the
next three fiscal years to determine if the jails intend to reduce the number
of bed spaces previously guaranteed to the USMS.

       Because we are not expressing an opinion of the USMS’s internal
controls as a whole, this statement is intended solely for the information of
the USMS in managing the CAP. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                      23
        ACRONYMS


BOP    Bureau of Prisons
CAP    Cooperative Agreement Program
DHS    Department of Homeland Security
FY     Fiscal Year
GAO    Government Accountability Office
IGA    Intergovernmental Agreement
INS    Immigration and Naturalization Service
JMD    Justice Management Division
OFDT   Office of the Federal Detention Trustee
OIG    Office of the Inspector General
OJP    Office of Justice Programs
OMB    Office of Management and Budget
USMS   United States Marshals Service




             24
                                                                APPENDIX I

            AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY


       The objective of the audit was to determine whether the USMS has
developed adequate plans, in the absence of CAP funding, to secure jail
space in court cities where CAP agreements will expire during the next three
fiscal years, and where jail space is scarce but no CAP agreements exist. We
performed our audit work in accordance with Government Auditing
Standards and, accordingly, included such tests of the records and
procedures, as we deemed necessary.

       As part of the audit, we reviewed applicable federal laws, regulations,
policies, manuals, memoranda, USMS files, and prior audit reports issued by
the GAO and the Office of the Inspector General. We also interviewed
officials from the USMS’s headquarters and selected District offices, JMD, the
OFDT, and OMB. We conducted fieldwork at the USMS headquarters in
Arlington, Virginia, the OFDT in Washington, D.C., and JMD in Washington,
D.C.

       To determine the history of funding for the CAP, we interviewed
officials at JMD the USMS, OFDT, OJP, and OMB, and obtained and analyzed
documentation of:

      •   annual budget requests for FY 2001 through FY 2006,

      •   enacted appropriations for FY 2001 through FY 2005,

      •   JMD’s analysis and recommendations related to the annual CAP
          budget,

      •   funds re-programmed from the CAP by the USMS to cover deficits
          in the federal prisoner services account during FY 2001 through
          FY 2004,

      •   funds deobligated from CAP for FY 2001 through FY 2004, and

      •   funds obligated for new CAP agreements during FY 2001 through
          FY 2004.

     To determine how the USMS’s detention space needs changed during
FY 2001 through FY 2004, we contacted a USMS official and obtained the
average daily detainee population for each fiscal year.

                                     25
     To determine the extent to which CAP agreements will expire, how
many guaranteed detention spaces will be affected by the expiring
agreements, and whether detention problems may result from the expiring
agreements, we performed the following.

  •   We obtained the USMS’s listing of active CAP agreements as of
      October 18, 2004, showing the number of detention beds guaranteed
      by the agreements and when the agreements expire.

  •   We determined the expiration dates on the USMS’s list of active
      agreements were not always accurate, so we reviewed the USMS’s
      CAP agreement files as of January 13, 2005, for all 180 active CAP
      agreements and calculated when the agreements would actually
      expire. We also reviewed the files for all 180 active agreements to
      verify that the number of guaranteed bed spaces recorded on the list
      for each agreement was correct.

  •   We performed an aging analysis of the listing of active CAP
      agreements to identify the number of agreements and guaranteed bed
      spaces that would expire in the near-term (FY 2005 through FY 2007)
      and long-term (beyond FY 2007).

  •   We compared the list of 31 CAP agreements guaranteeing 1,318 bed
      spaces that will expire in FY 2005 through FY 2007 to the detention
      status surveys submitted by USMS District offices for FY 2004 to
      identify the Districts who either indicated on the surveys that
      detention space was not a problem or did not submit a survey. We
      then telephonically contacted officials in these District offices to
      discuss whether the expiration of the CAP agreements in FY 2005
      through FY 2007 would, in the absence of additional CAP funding,
      cause problems in the District’s ability to secure detention space in the
      applicable court cities.

     To determine whether the USMS had other court cities where CAP
agreements are not in place and where detention space may be a problem,
we obtained and reviewed the 253 annual detention status surveys that
USMS Districts completed for FY 2004 in which they identified their current
detention status as either no problem, serious, or emergency. We then
compared the surveys to the 180 active CAP agreements to identify the
number of court cities whose detention status was reported as serious or
emergency in the surveys but no CAP agreements were in place.




                                      26
      To determine whether the USMS and OFDT had developed definitive
plans to secure detention space in the absence of CAP funding, we
interviewed officials at the USMS and OFDT.

     To determine whether the USMS could account for all the CAP funding
appropriated since FY 2001, we performed an analysis of the funding history
documentation previously discussed to identify the amount of CAP funds:

     •   appropriated for FY 2001 through FY 2004;

     •   rescinded, re-programmed, and deobligated for FY 2001 through
         FY 2004; and

     •   expended for FY 2001 through FY 2004.

      We interviewed USMS and OFDT officials to obtain explanations for
ending balances that could not be reconciled to the documentation provided
by the USMS and OFDT.




                                    27
                                                                        APPENDIX II

                SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS:                                 AMOUNT              PAGE

Unsupported costs related to CAP                  $739,540           20 – 21
funds provided for INS CAP
agreements that were not rescinded
by Congress

Unsupported costs for the                         $250,579              21
difference between the available
balance for CAP funds at the end of
FY 2004 based on the USMS’s
records and the available balance
for CAP funds at the end of FY 2004
based on the OFDT’s records

TOTAL QUESTIONED COSTS                            $990,119




Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.



                                           28
                                           APPENDIX III

EXAMPLES OF FY 2004 DISTRICT DETENTION STATUS SURVEYS




                         29
30
31
                                                              APPENDIX IV

    CAP AGREEMENTS EXPIRING FROM FY 2005 THROUGH FY 2007


                                                           Auditor
                                                          Calculated
                                                          Expiration      Beds
         State         Court City       Recipient Jail       Date      Guaranteed
1    Kansas           Wichita        Sedgwick County       4/30/2005       20
                      Salt Lake
     Utah                            Salt Lake County      4/30/2005       75
2                     City
3    Florida          Jacksonville   Baker County          6/30/2005       40
4    Kentucky         Paducah        McCracken County      6/30/2005       15
5    Oregon           Portland       Multnomah County       8/1/2005       86
5    Subtotal for FY 2005                                                 236
6    Kansas          Topeka          Jackson County       10/20/2005       15
7    Ohio            Cleveland       Lake County          10/30/2005       60
8    Texas           McAllen         Hidalgo County       10/31/2005       50
9    Florida         Key West        Monroe County        12/31/2005       15
10   Florida         Ft. Myers       Lee County             2/4/2006       50
11   North Carolina Greensboro       Guilford County       3/28/2006       40
12   Mississippi     Jackson         Madison County        3/31/2006       50
13   Florida         Jacksonville    Jacksonville/Duval    4/26/2006       25
14   Florida         Ft. Myers       Charlotte County      7/30/2006       30
15   North Carolina   Durham         Orange County          8/7/2006       20
16   Nebraska         Omaha          Sarpy County           9/3/2006       17
11   Subtotal for FY 2006                                                 372
17   Arizona         Yuma            Yuma County           10/3/2006       50
                     Grand
     Michigan                        Newaygo County       10/11/2006       60
18                   Rapids
19   Ohio            Columbus        Franklin County      10/20/2006       90
                     Baton           East Baton Rouge
     Louisiana                                            11/21/2006       20
20                   Rouge           Parish
21   Georgia         Macon           Bibb County          12/19/2006       30
22   New Mexico      Albuquerque     Sandoval County        3/2/2007       96
                                     Delaware Dept. of
     Delaware         Wilmington                            3/6/2007       6
23                                   Corrections




                                       32
                                                             Auditor
                                                            Calculated
                                                            Expiration      Beds
         State       Court City       Recipient Jail           Date      Guaranteed
24   Michigan        Marquette     Marquette County          3/10/2007       10
25   Virginia        Norfolk       City of Virginia Beach    5/13/2007       20
26   Tennessee       Nashville     Davidson County           6/17/2007       30
27   Washington      Spokane       Yakima County              7/1/2007       30
28   Alabama         Mobile        Mobile County             7/15/2007       50
29   Michigan        Detroit       Wayne County               8/5/2007      128
30   Arkansas        Little Rock   Faulkner County           9/21/2007       15
31   Massachusetts   Boston        Essex County              9/30/2007       75
15   Subtotal for FY 2007                                                   710
31   Totals for FY 2005 – FY 2007                                          1,318




                                     33
                                                                   APPENDIX V

                   CAP AGREEMENTS EXPIRING AFTER FY 2007


                                                            Auditor
                                                          Calculated         Beds
         State          Court City   Recipient Jail     Expiration Date   Guaranteed
                                     Queen Anne's
1    Maryland         Baltimore                              10/6/2007        16
                                     County
                                     Ste. Genevieve
2    Missouri         St. Louis                             10/16/2007        50
                                     County
     North
3                     Bryson City    Swain County           11/25/2007        15
     Carolina
4    California       Fresno         Fresno County          12/11/2007        95
5    Missouri         St. Louis      City of Jennings       12/11/2007        50
                                     Montgomery
6    Texas            Houston                               12/30/2007       100
                                     County
7    Ohio             Toledo         Lucas County             1/7/2008        10
     South                           Lexington
8                     Columbia                               2/11/2008        70
     Carolina                        County
9    Kentucky         Lexington      Franklin County         2/13/2008        20
10   Virginia         Roanoke        City of Roanoke         3/12/2008        50
11   Colorado         Denver         Denver County           3/22/2008        25
                                     Jefferson
12   Texas            Beaumont                                4/1/2008        75
                                     County
13   Texas            Houston        Harris County           5/14/2008       100
                                     West Virginia
14   West Virginia    Charleston     Regional Jail            6/1/2008        60
                                     Authority
                                     Valencia
15   New Mexico       Albuquerque    County Juvenile         6/15/2008        10
                                     Detention
16   Georgia          Albany         Colquitt County          7/1/2008        30
                                     Lafayette
17   Mississippi      Oxford                                  7/4/2008        50
                                     County
                                     Montgomery
18   Ohio             Dayton                                  8/3/2008        48
                                     County
     North                           Buncombe
19                    Asheville                               9/2/2008        27
     Carolina                        County
                                     Lafayette
20   Louisiana        Lafayette                               7/4/2008        58
                                     Parish
20   Subtotal for FY 2008                                                    959



                                      34
                                                            Auditor
                                                          Calculated         Beds
        State          Court City      Recipient Jail   Expiration Date   Guaranteed
     South                            Charleston
21                   Charleston                              10/1/2008        25
     Carolina                         County
                                      Shawnee
22   Kansas          Topeka                                  11/3/2008        17
                                      County
     North                            Johnston
23                   Raleigh                                11/30/2008        20
     Carolina                         County
                                      Woodbury
24   Iowa            Sioux City                             12/15/2008        15
                                      County
25   Texas           McAllen          Starr County           1/23/2009        80
     South                            Florence
26                   Florence                                 2/1/2009        25
     Carolina                         County
                     West Palm        Palm Beach
27   Florida                                                 4/11/2009       100
                     Beach            County
     South                            Orangeburg
28                   Columbia                                 6/2/2009        15
     Carolina                         County
                                      Tangipahoa
29   Louisiana       New Orleans                             6/20/2009        60
                                      Parish
                                      Cumberland
30   Maine           Portland                                8/12/2009        56
                                      County
                                      West Virginia
31   West Virginia   Beckley          Regional Jail          8/16/2009        30
                                      Authority
                                      Virgin Islands
     Virgin
32                   St. Thomas       Department of          8/17/2009        25
     Islands
                                      Corrections
33   Texas           McAllen          Starr County           9/14/2009       100
13   Subtotal for FY 2009                                                    568
     North
34                 Greenville         Vance County           10/3/2009        25
     Carolina
                                      West Virginia
35   West Virginia   Wheeling         Regional Jail         10/23/2009        60
                                      Authority
36   Vermont         Burlington       Franklin County       10/28/2009        15
                     Los Angeles/     San Bernardino
37   California                                              11/1/2009       320
                     San Diego        County
     North
38                   Asheville        Burke County           12/8/2009        18
     Carolina
                                      Seminole
39   Florida         Orlando                                12/15/2009        90
                                      County
40   Utah            Salt Lake City   Davis County           1/13/2010       120


                                       35
                                                          Auditor
                                                        Calculated         Beds
         State      Court City       Recipient Jail   Expiration Date   Guaranteed
                                    Imperial
41   California    San Diego                                3/1/2010       100
                                    County
42   Wisconsin     Madison          Dane County              3/6/2010       30
43   New York      Rochester        Monroe County           4/1/2010        40
                                    Kalamazoo
44   Michigan      Kalamazoo                               6/23/2010        20
                                    County
                                    Rockingham
45   Virginia      Harrisonburg                            6/26/2010        20
                                    County
                                    Maine
46   Maine         Portland         Department of          8/22/2010        20
                                    Corrections
47   Mississippi   Aberdeen         Monroe County           9/6/2010        5
                                    Onondaga
48   New York      Syracuse                                9/27/2010        40
                                    County
15   Subtotal for FY 2010                                                  923
49   Pennsylvania Scranton          Pike County             1/1/2011        50
                                    St Tammany
50   Louisiana     New Orleans                             1/15/2011        65
                                    Parish
51   Iowa          Des Moines       State of Iowa          1/23/2011       160
52   Florida       Tallahassee      Wakulla County          3/1/2011        15
                                    Grayson
53   Texas         Sherman                                  3/1/2011        35
                                    County
54   Texas         Corpus Christi   Nueces County           4/4/2011        96
                                    Delaware
55   Delaware      Wilmington       Department of          6/25/2011        10
                                    Corrections
56   Arkansas      El Dorado        Union County            7/3/2011        10
57   Texas         San Antonio      Wilson County          7/16/2011        60
58   Minnesota     Minneapolis      Anoka County           7/26/2011        60
                                    Chesapeake
59   Virginia      Norfolk                                 8/26/2011        50
                                    City
11   Subtotal for FY 2011                                                  611
                                    Converse
60   Wyoming       Casper                                  11/4/2011        5
                                    County
                                    Van Buren
61   Michigan      Kalamazoo                              12/11/2011        10
                                    County
62   New York      Rochester        Niagara County          2/1/2012        40



                                     36
                                                            Auditor
                                                          Calculated         Beds
         State       Court City     Recipient Jail      Expiration Date   Guaranteed
63   Kansas         Wichita         Harvey County             4/30/2012       25
64   Vermont        Rutland         Addison County             5/8/2012       21
65   Iowa           Des Moines      Polk County                9/1/2012       50
66   Missouri       Springfield     Greene County              9/1/2012       36
8    Subtotal for FY 2012                                                    187
                                    Westchester
67   New York       Syracuse                                 10/6/2012        5
                                    County
                                    Lackawanna
68   Pennsylvania   Scranton                                10/10/2012        10
                                    County
69   Michigan       Grand Rapids    Mecosta County           1/15/2013        10
70   Idaho          Boise           Canyon County            1/21/2013        15
                                    Montgomery
1    New York       Albany                                    2/9/2013        30
                                    County
72   Texas          El Paso         El Paso County            8/1/2013       500
73   Georgia        Atlanta         Atlanta City Jail        8/11/2013       300
                                    Alameda
74   California     San Francisco                            8/19/2013        50
                                    County
8    Subtotal for FY 2013                                                    920
75   New York       Albany          Oneida County            10/6/2013        35
                                    Hillsborough
76   Florida        Tampa                                    11/9/2013       150
                                    County
77   Alabama        Mobile          Baldwin County           12/1/2013       100
                                    Pinal County
78   Arizona        Phoenix                                  12/1/2013        10
                                    (juvenile)
     North
79                  Durham          Orange County            1/27/2014        75
     Carolina
                                    Yellowstone
80   Montana        Billings        County                    2/3/2014        3
                                    (juvenile)
                                    Vermont
81   Vermont        Burlington      Department of             3/8/2014        40
                                    Corrections
82   Iowa           Cedar Rapids    Sioux County             3/10/2014        15
                                    Connecticut
83   Connecticut    Bridgeport      Department of            3/17/2014        50
                                    Corrections
     North
84                  Greenville      Pitt County              4/14/2014       100
     Carolina

                                     37
                                                          Auditor
                                                        Calculated         Beds
          State       Court City     Recipient Jail   Expiration Date   Guaranteed
85    Texas         San Angelo       Runnels County        4/28/2014        12
86    Louisiana     Alexandria       Rapides Parish         5/1/2014        25
                                     Sacramento
87    California    Sacramento                             5/17/2014       200
                                     County
                                     Tidewater
88    Virginia      Norfolk                                7/26/2014        50
                                     Regional Jail
89    Oklahoma      Tulsa            Tulsa County          8/25/2014        50
15    Subtotal for FY 2014                                                 915
      North                          Grand Forks
90                  Grand Forks                           12/15/2014        15
      Dakota                         County
                                     Northern Neck
91    Virginia      Richmond                               1/28/2015       150
                                     Regional Jail
92    Oregon        Eugene           Lane County           3/30/2015        50
                                     Alaska
                    ALL COURT
93    Alaska                         Department of          5/4/2015        50
                    CITIES
                                     Corrections
94    California    Fresno           Fresno County         6/13/2015        80
95    Florida       Key West         Dade County           7/13/2015       115
96    Mississippi   Hattiesburg      Forrest County        8/28/2015        10
7     Subtotal for FY 2015                                                 470
                                     Pennington
      South
97                  Rapid City       County                10/1/2015        6
      Dakota
                                     (juvenile)
98    Illinois      Rockford         Ogle County          10/10/2015        20
                    Cape             Cape Girardeau
99    Missouri                                             12/1/2015        42
                    Girardeau        County
100   New York      Buffalo          Erie County          12/13/2015        60
      North         Winston-
101                                  Forsyth County       12/31/2015        80
      Carolina      Salem
102   Utah          Salt Lake City   Weber County          1/10/2016       100
                                     Milwaukee
103   Wisconsin     Milwaukee                              2/15/2016        50
                                     County
                                     Maverick
104   Texas         Del Rio                                 4/1/2016       150
                                     County
                                     St. Joseph
105   Indiana       South Bend                              4/9/2016        30
                                     County
106   Indiana       Hammond          Lake County            5/3/2016        30


                                      38
                                                              Auditor
                                                            Calculated         Beds
          State       Court City       Recipient Jail     Expiration Date   Guaranteed
107   Arizona        Phoenix           Pinal County             6/20/2016       250
108   Kentucky       Lexington         Fayette County          8/10/2016        50
12    Subtotal for FY 2016                                                     868
                                       McLennan
109   Texas          Waco                                      1/13/2017        60
                                       County
                                       Cameron
110   Texas          Brownsville                                2/1/2017       300
                                       County
                                       Central Virginia
111   Virginia       Charlottesville                            2/6/2017       150
                                       Regional Jail
                                       City of North
112   Nevada         Las Vegas                                 2/15/2017       450
                                       Las Vegas
      North                            Mecklenburg
113                  Charlotte                                  4/1/2017       350
      Carolina                         County
114   Nebraska       Omaha             Cass County             5/10/2017        30
                                       Bannock
115   Idaho          Pocatello                                 5/30/2017        15
                                       County
                                       Muskogee
116   Oklahoma       Muskogee                                   7/8/2017        25
                                       County
117   Nebraska       Omaha             Saline County            8/1/2017        20
                                       Calcasieu
118   Louisiana      Lake Charles                               9/1/2017        30
                                       Parish
10    Subtotal for FY 2017                                                    1,430
119   Indiana       Indianapolis       Marion County           10/1/2017        90
120   Indiana        Hammond           Porter County           10/1/2017        40
121   New York       Albany            Albany County           10/1/2017        55
      South                            City of
122                  Anderson                                  10/3/2017        40
      Carolina                         Anderson
123   Kentucky       Cincinnati        Boone County            11/5/2017        30
124   California     Fresno            Fresno County          12/31/2017       260
      North                            McDowell
125                  Asheville                                 7/25/2018        32
      Carolina                         County
126   Nebraska       Omaha             Douglas County           8/6/2018       100
127   Kansas         Wichita           Butler County           8/12/2018        40
9     Subtotal for FY 2018                                                     687
                                       Burleigh
128   North Dakota   Bismarck                                 10/20/2018        12
                                       County



                                        39
                                                           Auditor
                                                         Calculated         Beds
         State        Court City    Recipient Jail     Expiration Date   Guaranteed
                                    Hamilton
129   Tennessee      Chattanooga                            2/10/2019       100
                                    County
                                    Escambia
130   Florida        Pensacola                               9/1/2019        50
                                    County
                                    Pottawattamie
131   Nebraska       Omaha                                   9/1/2019        75
                                    County
4     Subtotal for FY 2019                                                  237
132   Tennessee     Knoxville       Knox County            10/15/2019        45
      South                         Lexington
133                 Columbia                                3/20/2020        30
      Carolina                      County
                                    Dona Ana
134   New Mexico     Las Cruces                              5/4/2020       300
                                    County
                                    Sherburne
135   Minnesota      Minneapolis                             8/1/2020       180
                                    County
4     Subtotal for FY 2020                                                  555
136   Wyoming       Casper          Natrona County         12/14/2020        15
137   Missouri      Springfield     St. Clair County        3/28/2021        60
                                    Cambria
138   Pennsylvania   Pittsburgh                              8/8/2021        20
                                    County
3     Subtotal for FY 2021                                                  95
                                    Town of Pecos
139   Texas          Pecos                                   6/1/2022        94
                                    City
140   North Dakota   Fargo          Cass County             8/15/2022        10
2     Subtotal for FY 2022                                                  104
                                    City of
141   Alabama        Montgomery                             10/3/2022        68
                                    Montgomery
142   Iowa           Cedar Rapids   Linn County            10/28/2022        80
                                    Cascade
143   Montana        Great Falls                            1/11/2023        35
                                    County
                                    Pinal County
144   Arizona        Phoenix                                1/12/2023        12
                                    (juvenile)
4     Subtotal for FY 2023                                                  195
0     Subtotal for FY 2024                                                   0
                                    Missoula
145   Montana        Missoula                              11/14/2024        22
                                    County
1     Subtotal for FY 2025                                                  22


                                     40
                                                       Auditor
                                                     Calculated         Beds
         State      Court City   Recipient Jail    Expiration Date   Guaranteed
                                 Government of
146   Guam         Agana                                 8/1/2026        75
                                 Guam
1     Subtotal for FY 2026                                              75
                                 Yellowstone
147   Montana      Billings                             1/28/2027        20
                                 County
1     Subtotal for FY 2027                                              20
                                 City of
148   Indiana      Hammond                             10/18/2027        24
                                 Hammond
1     Subtotal for FY 2028                                              24
                                 City of Bedford
149   Ohio         Cleveland                             7/8/2029        20
                                 Heights
1     Subtotal for FY 2029                                              20
149   Totals for FY 2008 – FY 2029                                     9,885




                                     41
                                      APPENDIX VI

USMS’s RESPONSE TO THE DRAFT REPORT




                42
43
44
                                  APPENDIX VII

OFDT’S RESPONSE TO THE DRAFT REPORT




                45
46
                                                            APPENDIX VIII

        OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
       SUMMARY OF ACTIONS NEEDED TO CLOSE THE REPORT


       We provided the draft report to both the USMS and OFDT for
comment. The USMS response, included in this report as Appendix VI,
agrees with each of our recommendations and proposes corrective action
sufficient to resolve the recommendations. Our analysis of the status of the
recommendations begins on page 49 of this appendix.

       The OFDT response is included in this report as Appendix VII. The
OFDT does not comment on our recommendations and, instead, focuses on
what it considers to be mischaracterizations of information provided to us by
OFDT staff. After reviewing the OFDT’s response and our contemporaneous
records of conversation with OFDT staff, we believe the report accurately
portrays the information provided to us during interviews on January 11,
2005, with the Director of Operations and the Budget Director of the OFDT.
The following five paragraphs discuss the current positions taken by the
OFDT in its response to the draft audit report and our analysis of those
positions.

      The OFDT response states that simply because a CAP agreement
expires does not necessarily mean the corresponding IGA cannot be
continued. However, our report does not say that IGAs cannot be continued
when a CAP agreement expires. Instead, we report that the USMS provided
no evidence to show that it had performed research or analyses to
determine: (1) whether state and local governments with expiring CAP
agreements would continue housing prisoners, and at what cost, through
IGAs in the absence of CAP funds; and (2) alternate locations where
detainees could be housed, and at what cost, if current CAP sites decide to
discontinue housing USMS detainees when CAP funding ends. Because the
USMS has not thoroughly researched and addressed these issues, we
concluded that the USMS cannot assure that adequate detention space, at a
reasonable cost, will be available to meet detention needs as existing CAP
agreements expire. In response to our recommendation, the USMS has now
agreed to conduct the appropriate research.

      The OFDT also states in its response that, while we noted a lack of
analyses on CAP agreements, it has in fact conducted such analyses. The
OFDT discusses, as anecdotal examples, two reviews of individual
agreements. When interviewed during the audit, OFDT officials did not
provide any analyses on either the cost effectiveness of CAP agreements or

                                     47
the ability of the USMS to meet detention needs at a reasonable cost with
IGAs. While the two reviews cited by the OFDT are helpful, those reviews
alone are not meaningful for 180 CAP agreements currently in place, provide
no basis for determining if CAP agreements are cost effective, and provide
no insight on the USMS’s ability to meet its detention needs at a reasonable
cost with IGAs.

       Also in its response, the OFDT states that the majority of prior expired
CAP agreements still have IGAs in place. While we do not have sufficient
data to verify this statement, recent OFDT policy changes may significantly
affect the USMS’s ability to continue housing detainees at facilities with
expiring CAP agreements. The OFDT issued a policy, effective
February 4, 2005, stating that, as a temporary measure, no new IGAs can
be awarded and no existing IGAs can be extended at an increased price
because of detention funding shortfalls. Until and unless additional
detention funding is obtained and this policy restriction is lifted, state and
local jurisdictions may be more likely to discontinue housing detainees when
CAP agreements expire.

       The OFDT also states that there has been no indication that
jurisdictions providing bed space through a CAP agreement would not
continue to provide the space under an IGA not associated with a CAP
agreement. As noted in our audit, neither the OFDT nor the USMS had
contacted the jurisdictions with expiring CAP agreements to determine
whether the jurisdictions would continue housing USMS detainees after the
CAP agreements expire. The OFDT response seems to indicate that it is
incumbent upon the jurisdictions to notify the USMS or the OFDT of such
decisions. However, the USMS or OFDT must take the lead in this matter
and the USMS’s proposed action regarding surveys addresses our concern.

       The OFDT response also suggests the report does not accurately
reflect what we were told by OFDT staff in regard to the need for the CAP in
the future. The OFDT officials we interviewed told us that detention space
needs, in the absence of CAP funding, can be met with IGAs. They also said
that the USMS has in the past relied too heavily on the CAP program to
provide bed space for its detainees. The Director of Operations said that the
CAP is not worth the money because jail officials already have an incentive
to house USMS detainees through IGAs. He also said that, because the
duration of a CAP agreement is typically 15 to 20 years, the USMS is
reluctant to house its detainees in another jail that may have a lower per
diem rate because they have invested funds in the CAP facility. The Budget
Director said that the CAP program should be funded but not at the level
requested by the USMS. The OFDT officials presented these statements as


                                      48
accurate representations of their position on the CAP program, and we did
not remove the comments from the context of the interview.

      We also provided portions of the draft report to the JMD for a review of
pre-decisional budget information contained in the report. The JMD
expressed no concerns about the budget data but informally suggested some
minor wording changes, which we have incorporated in the budget
discussion on page 10 of the report.

      The status of the recommendations and the action necessary to close
the recommendations are presented below.

1. Resolved. This recommendation is resolved based on the USMS’s
   agreement to modify its annual detention survey to capture information
   on expiring CAP agreements and to plan accordingly. The
   recommendation can be closed when we receive and review the plans
   developed.

2. Resolved. This recommendation is resolved based on the USMS’s
   agreement to remedy the questioned costs. The recommendation can be
   closed when we receive and review documentation supporting the remedy
   completed.

3. Resolved. This recommendation is resolved based on the USMS’s
   agreement to remedy the questioned costs. The recommendation can be
   closed when we receive and review documentation supporting the remedy
   completed.




                                     49
